<html>
<title> - A REVIEW OF THE NATIONAL SCIENCE FOUNDATION FISCAL YEAR 2020 BUDGET REQUEST</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        A REVIEW OF THE NATIONAL
                           SCIENCE FOUNDATION
                    FISCAL YEAR 2020 BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2019

                               __________

                           Serial No. 116-15

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-254PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cdbda28daeb8beb9a5a8a1bde3aea2a0e3">[email&#160;protected]</a>                   
         
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
PAUL TONKO, New York                 ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JAIME HERRERA BEUTLER, Washington
STEVE COHEN, Tennessee
BILL FOSTER, Illinois
                         
                         
                         C  O  N  T  E  N  T  S

                              May 8, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    10

Statement by Representative Jim Baird, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    15
    Written statement............................................    17

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    19
    Written statement............................................    20

                               Witnesses:

Dr. France Cordova, Director, National Science Foundation
    Oral Statement...............................................    22
    Written Statement............................................    25

Dr. Diane Souvaine, Chair, National Science Board
    Oral Statement...............................................    35
    Written Statement............................................    37

Discussion.......................................................    48

             Appendix I: Answers to Post-Hearing Questions

Dr. France Cordova, Director, National Science Foundation........    66

Dr. Diane Souvaine, Chair, National Science Board................    81

            Appendix II: Additional Material for the Record

Additional response submitted by Dr. France Cordova, Director, 
  National Science Foundation....................................    90

 
                        A REVIEW OF THE NATIONAL
                           SCIENCE FOUNDATION
                    FISCAL YEAR 2020 BUDGET REQUEST

                              ----------                              


                         WEDNESDAY, MAY 8, 2019

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Haley 
Stevens [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time.
    Good morning, and welcome to today's hearing to review the 
National Science Foundation (NSF) Fiscal Year 2020 Budget 
Request. Dr. Cordova and Dr. Souvaine, thank you for being 
here.
    The National Science Foundation plays a critical role in 
advancing the U.S. scientific enterprise. NSF funding has 
enabled the inventions of things that have become commonplace 
in our lives: the first formal dictionary for American Sign 
Language, the development of barcodes, and the invention of the 
internet. I would like to congratulate both of our witnesses on 
the National Science Foundation's most recent breakthrough: the 
first image of a black hole.
    As the only Federal science agency that supports basic 
research across all fields of science and engineering, NSF 
provides about one-fourth of all Federal support for basic 
research conducted at colleges and universities. For 
researchers in certain fields like computer science, biology, 
and social science, NSF is the primary source of Federal 
funding. NSF is also the principal source of Federal support 
for STEM (science, technology, engineering, and mathematics) 
education at all levels and in all settings, from pre-
kindergarten through career development. This work enables the 
United States to lead the world in science and innovation, 
compete in the global economy, and protect the health and 
security of our citizens.
    Funding for the NSF has steadily increased in recent years 
thanks to Congress rejecting repeated proposals for cuts from 
the current Administration. The agency's budget exceeded $8 
billion for the first time in Fiscal Year 2019.
    I will start with good news. I applaud the agency for 
sustaining its commitment to the 10 Big Ideas. I am also glad 
to see full funding for the construction of major research 
facilities like the Antarctic Infrastructure Modernization 
Project and Large Synoptic Survey Telescope. Cutting-edge 
equipment and facilities are essential for researchers to push 
the boundaries of knowledge and for training the next 
generation of top scientists.
    I also appreciate the prioritization of artificial 
intelligence, the future of work, and quantum science, two 
areas which will be critical for U.S. economic and national 
security. It is also safe to say that the world is waiting and 
eager for our leadership in these areas. I'm happy to see the 
increases in some areas--the budget increases, that is--for 
these two important focuses on research in the Fiscal Year 2020 
budget proposal.
    Unfortunately, though, we continue to see a concerning lack 
of understanding around the importance of science and yet again 
another round of drastic cuts in funding for scientific 
research proposed by the current Administration. The Fiscal 
Year 2020 request proposes to cut a full $1 billion from the 
National Science Foundation budget.
    Henceforth, the role of Congress shall be exercised. We are 
here today to evaluate the merits of these cuts, and, as Chair 
of this Subcommittee on Research and Technology with oversight 
of the NSF, I can unequivocally say that such a cut would 
threaten our Nation's leadership in science and technology 
across all fields of science and engineering. Despite some of 
the interagency increases in AI and Quantum, making this a 
zero-sum game by cutting other fields of science and 
engineering and eroding the foundational backbone of all 
emerging technologies is unwise at best.
    The Fiscal Year 2020 budget proposal would also slow 
progress in STEM education, including efforts to increase 
diversity in our STEM workforce, the topic of a Full Committee 
hearing led by our fabulous Full Committee Chair Eddie Bernice 
Johnson that we are having later this week.
    We are seeing a surge in demand for workers with STEM 
skills across all sectors, and educators are struggling to keep 
up. Within months of releasing its 5-year strategic plan in 
STEM education, the current Administration put forward a 
proposal to gut STEM education programs governmentwide. It 
worries me that we are eager to talk about science and 
scientific innovation in platitudes, and yet we fail to put 
forward a strategic investment plan that would enable us to 
compete and win in global marketplaces. The current proposal 
represents a vision for science that, if realized, would be 
disastrous for our Nation's long-term welfare, security, and 
competitiveness.
    Dr. Cordova, I appreciate the leadership and background and 
experience that you and Dr. Souvaine bring to this agency. I 
look forward to a discussion with both of you today on the 
value of the National Science Foundation as a national asset 
and the potential impacts of these cuts.
    [The prepared statement of Chairwoman Stevens follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. Now, I would like to recognize our 
Ranking Member, Mr. Baird, for an opening statement.
    Mr. Baird. Thank you, Chairwoman Stevens, and thank you for 
convening today's hearing for this Fiscal Year 2020 budget 
request for the National Science Foundation. And I really want 
to thank our witnesses for being here today as well. I 
appreciate that. I am looking forward to this opportunity to 
learn more about the National Science Foundation and its 
mission to promote the progress of science.
    The NSF is the only Federal agency that supports basic 
research across all scientific fields from biology to physics. 
As a trained Ph.D. scientist, I know that basic research is the 
seed that grows into the products and solutions that drive our 
economy and improve our lives. The NSF plays a critical role in 
helping educate and train the next generation of STEM workers, 
and we need to invest in young people who will go into fields 
where there is a national need and good-paying jobs.
    Earlier this year, I joined Chairwoman Stevens in 
introducing the Building Blocks of STEM Act. I look forward to 
moving the bill forward and working with NSF to make sure we're 
giving young students a foundation to continue in the STEM 
studies. For the United States to remain competitive, we must 
ensure that as many people as possible have the opportunity to 
participate in STEM fields and build valuable, fulfilling 
careers.
    In my district, I am proud to represent Purdue University, 
Indiana's Land Grant University, as Dr. Cordova well knows. NSF 
funded nearly $68 million in groundbreaking research at Purdue 
last year. To share just one example, NSF funded an engineering 
research center at Purdue, which is developing new technologies 
to produce fuels from U.S. shale-gas deposits that could inject 
$20 billion annually into our economy. This is an example of 
the potential impact of NSF-funded research.
    As we've heard, the President's budget request for NSF is 
just over $7 billion, a 12.5 percent decrease from last year's 
enacted funding. Like all other agencies and departments, NSF 
was forced to take and make tough decision and choices. The 
budget request reflects an attempt to set priorities in a 
constrained budgetary environment. The budget request 
prioritizes funding for critical areas like artificial 
intelligence, quantum technology, and advanced manufacturing. I 
look forward to hearing about these new investments in today's 
testimony.
    But the President's budget proposal is just that. It's just 
a budget proposal. It's ultimately up to Congress to decide at 
what level NSF is funded. We have a constitutional obligation 
and a responsibility to ensure every taxpayer dollar spent is 
used as effectively and efficiently as possible. I appreciate 
that today's hearing gives us the opportunity to fulfill that 
duty.
    And I thank the witnesses for being here today and yield 
back my balance of time.
    [The prepared statement of Mr. Baird follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. At this time the Chair now recognizes 
the Chairwoman of the Full Committee, Ms. Johnson, for an 
opening statement.
    Chairwoman Johnson. Good morning, and thank you, Chairwoman 
Stevens and Ranking Member Dr. Baird, for holding this hearing 
to review the National Science Foundation budget request for 
Fiscal Year 2020. And thank you, Dr. Cordova and Dr. Souvaine, 
for being here this morning. It is good to have both of you 
again.
    The National Science Foundation, during its nearly 70-year 
history, has played a critical role in promoting our economic 
prosperity, national security, and the health and well-being of 
our population. It should come as no surprise that nations 
around the world, including some of our rivals, have attempted 
to replicate NSF in their own governments. This is why I'm 
dismayed that the budget that has been sent over by the White 
House proposes to cut NSF by a $1 billion. A cut like that 
would keep us from funding excellent research and slow progress 
in critical areas of technology development.
    Unfortunately, this is a pattern that we've seen from this 
White House over the past three budget cycles. To make matters 
worse, the recent shut down of much of our government for 35 
days, including the National Science Foundation, resulted in 
delays for 2,000 grant applications. While there may seem to be 
minor to some, delays in grant funding derail academic careers, 
sometimes permanently.
    Increasingly, U.S. students and early career researchers 
are packing up for better opportunities abroad or leaving STEM 
altogether. I have no doubt that we have the brainpower in this 
country to continue to lead but not if we chase away our own 
best and brightest and close our doors to the best and 
brightest from around the world. I'm an optimist, but I also 
recognize the sobering realities of increasing competition, a 
growing skills gap, and crumbling research infrastructure.
    We also gain from international collaboration, and other 
countries investing more in R&D is overall a good thing. 
However, we must maintain our investments to reap the benefits 
of collaboration and protect our economic and national security 
interests.
    Some of my colleagues will say this is just a proposal, and 
Congress has the final say in the budget. However, until 
Congress acts, the agency and researchers can only plan 
according to what's in the Administration's proposal.
    Moreover, Congress itself has become too comfortable with 
passing one short-term continuing resolutions one after another 
that has done harm as well. Tomorrow morning, this Committee 
will hold its first hearing since 2010 assessing the state of 
diversity in STEM.
    The NSF budget proposal includes $168 million in cuts to 
NSF investment in broadening participation. The Administration 
proposes to eliminate the STEM Partnerships Program and 
significantly cut the Noyce Teacher Scholarship Program. These 
proposed cuts are included, despite this Administration 
prioritizing diversity in its recent governmentwide STEM 
strategic plan. A commitment to addressing our Nation's 
challenges must involve more than just words.
    Dr. Cordova, I do not question your commitment, nor the 
commitment of the talented, hardworking staff around the--
across the National Science Foundation. I know you did your 
best with a very challenging top line. But we cannot just keep 
pretending year after year that everything is going to be OK 
because Congress will restore the National Science Foundation's 
funding.
    As the months tick by between now and then, more students 
and researchers across our Nation will lose hope that the 
United States is still the best country in the world to be a 
scientist. Our Nation's leadership, on both sides of the aisle, 
must provide the support our students and researchers need to 
apply their knowledge and talents to the betterment of our 
society. I truly hope, going forward, we can do better than we 
have been.
    I look forward to the testimony and discussion, and I yield 
back. Thank you.
    [The prepared statement of Chairwoman Johnson follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. At this time, the Chair now recognizes 
the Ranking Member of the Full Committee, Mr. Lucas, for an 
opening statement.
    Mr. Lucas. Thank you, Chairwoman Stevens and Ranking Member 
Baird, for holding this hearing to review the National Science 
Foundation's priorities for the year 2020.
    Since its creation in 1950, the National Science Foundation 
has played a critical role in advancing science for America's 
national defense and economic security. Basic research 
supported by NSF forms the foundation of discoveries that fuels 
private-sector development. It also provides a training ground 
for our Nation's scientists, engineers, and other STEM workers.
    We've heard concerns about some of the proposed cuts 
included in the Administration's request. I would remind my 
colleagues that the President's budget request is just a 
starting point for our discussions, as have all previous 
Presidents' budgets been. We're here today to learn more about 
how best to prioritize NSF's resources. It is also important to 
note that in recent years Congress has decided to fund NSF at a 
higher rate than the President's budget request.
    I believe the Federal Government has a responsibility to 
prioritize basic research and development. This Committee has 
demonstrated a long history of bipartisan support for the work 
of the National Science Foundation. As the Ranking Member, I am 
committed to working with Chairwoman Johnson and the 
appropriators to continue that support. However, as I said at a 
hearing earlier this year on American Competitiveness in 
Science and Technology, we need to collectively do a better job 
of explaining why science matters to all Americans.
    NSF has a great story to tell. NSF-funded research is 
helping address some of the Nation's most critical needs from 
treating opioid addiction to bringing high-speed broadband to 
rural areas across the country. In my home State of Oklahoma, 
NSF invests $25 million a year in research and STEM education. 
NSF is working with the University of Oklahoma on improving 
forecasting of supercell thunderstorms. At Oklahoma State, NSF 
is funding a program to give scientists the skills to be 
entrepreneurs and start new small businesses.
    At townhalls throughout my district in Oklahoma, I talk to 
my constituents not just about the work that NSF and our other 
science agencies are doing, but, more importantly, why it 
matters to them. I'm sure my colleagues here do the same. And 
NSF can do even more to help create a culture that both values 
and prioritizes R&D.
    I look forward to working with the leadership of the 
National Science Foundation and the National Science Board to 
meet this challenge and ensure America continues to lead in 
technological advancement.
    Thank you to witnesses Dr. Cordova and Dr. Souvaine for 
your leadership and being here today to testify, and I yield 
back, Madam Chairman.
    [The prepared statement of Mr. Lucas follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. At this time I'd like to introduce our 
witnesses, and if you're looking for two inspiring, strong 
women in the field of science, look no further than our expert 
witnesses here before us today. Our first witness is Dr. France 
Cordova. Dr. Cordova was confirmed as the 14th Director of the 
National Science Foundation in 2014. Dr. Cordova is President 
Emerita of Purdue University and Chancellor Emerita of the 
University of California Riverside. Previously, she was Chief 
Scientist at NASA, and Dr. Cordova received her bachelor of 
arts degree from Stanford University and her doctorate in 
physics from the California Institute of Technology.
    Our next witness is Dr. Diane Souvaine. Dr. Souvaine is 
currently the Chair of the National Science Board, the NSB, a 
position that she has held since 2018. She is also a Professor 
of Computer Science and an Adjunct Professor of Mathematics at 
Tufts University. She was previously Vice Chair from 2016 to 
2018 of the NSB and has chaired the NSB's Committee on Strategy 
and Budget, its Committee on Programs and Plans, and has served 
on its Committee on Audit and Oversight. Dr. Souvaine received 
her master's and doctorate degrees in computer science from 
Princeton University.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony.
    And, well, let me actually run back here, too, because we 
jumped over with our opening statements, and I do want to make 
a mention that if any other Members who wish to submit opening 
statements, additional opening statements, they could either be 
submitted at this point or into the record, so we're--you know, 
if people want to do that, that's great.
    As we jump to our witness testimony, though, you'll have 
the 5 minutes. When you've completed your spoken testimony, we 
will begin with questions, and each Member on the Subcommittee 
will have 5 minutes to question you.
    And so, right now, we will start with Dr. Cordova.

                TESTIMONY OF DR. FRANCE CORDOVA,

              DIRECTOR, NATIONAL SCIENCE FOUNDATION

    Dr. Cordova. Thank you, Chairwoman Stevens, Ranking Member 
Dr. Baird, and Members of the Subcommittee, Chairwoman Johnson, 
Ranking Member Lucas. It's a pleasure to be with you today and 
thank you for your stirring, inspiring words.
    The President's Fiscal Year 2020 budget request for the 
National Science Foundation is $7.1 billion. This request makes 
targeted investments in basic research within the constrained 
budget environment. My written testimony contains the details 
of the Fiscal Year 2020 request. I'd like to take the next few 
minutes to focus on the importance of NSF's mission and our 
Fiscal Year 2020 investments.
    Last month, NSF and the Event Horizon Telescope team 
brought the world the first-ever image of a black hole. This 
amazing feat of global cooperation and ingenuity in science and 
engineering underscores NSF's unique and incredibly valuable 
mission. We fund the most promising basic research in all 
disciplines of science and engineering, and every major 
newspaper of the world had that image on it. It was absolutely 
amazing. Talk about bringing science to people--very inspiring.
    Our track record of making wise investments is strong. 
Since its creation in 1950, NSF has supported 236 Nobel Prize 
winners at some point in their careers. Over the past 70 years, 
NSF's mission has contributed greatly to our country's economic 
prosperity, our national security, our health, and our global 
leadership in innovation.
    Basic research lays the foundation upon which progress is 
built. Without it, we would not have many of the modern-day 
technologies and advancements that are so ubiquitous in our 
lives. For example, NSF played a critical role in additive 
manufacturing, which has revolutionized the way we conceive of 
and build everything from electronic devices to artificial 
organs. NSF has also given early support to visionary 
entrepreneurs that have developed major companies like 
Qualcomm, Symantec, and Google. Google alone has seen a 
200,000fold return on NSF's original investment.
    From the discovery of a microbe's enzyme in the Hot Springs 
of Yellowstone National Park that makes modern DNA 
fingerprinting possible to computer devices that help 
elementary school students learn, NSF supports the discoveries 
and the discoverers that keep the United States at the leading 
edge of innovation. Paul Romer, co-winner of the 2018 Nobel 
Prize for Economics, has emphasized that human capital, 
innovation, and knowledge are vital contributions to economic 
growth.
    The Fiscal Year 2020 budget request contains two 
cornerstones of NSF's vision for the future: the 10 Big Ideas 
and the Convergence Accelerator. NSF's 10 Big Ideas define a 
set of cutting-edge research agendas that are uniquely suited 
for its broad portfolio of investments and will require 
collaborations with industry, academia, and others. Each of the 
10 Big Ideas was chosen to be a catalyst for fundamental 
research that will expand the boundaries of our knowledge from 
the cellular level to the cosmos. For instance, understanding 
how new technologies are shaping the lives of workers and how 
people in turn can shape those technologies, that's the focus 
of NSF's Big Idea on The Future of Work.
    Also important is the Convergence Accelerator, which will 
be focused on high-risk, high-reward innovative thinking to 
accelerate discovery and innovation and achieve rapid lab-to-
market outcomes.
    We're also making significant investments to continue U.S. 
leadership in artificial intelligence, quantum information 
science, and advanced manufacturing. Public-private 
partnerships have long been one of NSF's core strategies. As we 
look to the future in these and other areas, they'll be even 
more important.
    We continue to invest in large-scale research facilities 
that keep the United States at the forefront of discovery--
deploying a new supercomputer at the University of Texas, 
completing the construction of the solar telescope DKIST and 
the optical observatory LSST, and modernizing the Antarctic 
facilities of which NSF is the steward for the Nation.
    NSF is also proposing dedicated funding for the scientific 
infrastructure that falls between our smaller programs and 
large construction projects. The need for mid-scale funding has 
been called out by Congress, the National Academies, and the 
National Science Board.
    Perhaps most importantly, we continue to invest in people. 
Discoveries don't happen without discoverers. We must continue 
to light the imagination of the next generation and support and 
nurture their curiosity. Thus, NSF is focused on advancing 
excellence in STEM education at all levels and in all settings 
to support the development of a diverse and well-prepared 
workforce.
    NSF's Advanced Technological Education program involves 
partnerships between academic institutions and industries to 
prepare science and engineering technicians in the industries 
of the future. The vast majority of those projects are situated 
in community colleges.
    I'd be remiss not to also thank Congress for the strong 
support provided for NSF's mission, especially in Fiscal Year 
2019. With that funding, we're making investments that keep the 
United States at the cutting edge of scientific discovery and 
Americans leading the world in scientific achievement.
    Thank you for your time today and for your continued strong 
support of NSF and our mission.
    [The prepared statement of Dr. Cordova follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Fabulous. And at this time, we will now 
recognize Dr. Souvaine for 5 minutes.

                TESTIMONY OF DR. DIANE SOUVAINE,

                  CHAIR, NATIONAL SCIENCE BOARD

    Dr. Souvaine. Chairwoman Stevens, Ranking Member Baird, 
Chairwoman Johnson, and Ranking Member Lucas, thank you for 
this opportunity to be with you here today.
    Let me say first that I greatly appreciate the longstanding 
bipartisan support Congress and this Committee in particular 
has shown for NSF. We thank you for our Fiscal Year 2019 
appropriation, which exceeds $8 billion for the first time.
    The Federal Government is uniquely able to invest in 
fundamental research that drives innovation, impacting 
everything from national security to economic growth to 
education. The wisdom of Congress to sustain NSF funding levels 
despite competing priorities has helped ensure America has the 
new discoveries and technologies necessary for our security and 
prosperity.
    I am confident that NSF will continue to manage its 
portfolio and do great things at the $7.1 billion level of the 
Fiscal Year 2020 request, and yet the NSB sees vastly more 
potential. In my written testimony I note that in Fiscal Year 
2017 NSF could not fund $1.6 billion worth of outstanding 
merit-review proposals. Are we already losing out on the next 
Google, the next LIGO, or the next Kevlar? How many budding 
researchers might see a foreign talent program as the only 
option for pursuing the research that they love? I think all of 
us would rather see these discoveries blossom into new 
innovations here in the United States.
    Last year, my predecessor testified that China is 
overtaking us in R&D investments. While science is the endless 
frontier, we are not the only explorers. If the United States 
is to maintain its standing as a global leader in science and 
engineering, we need a renewed national commitment to 
fundamental research.
    I believe that this must include four components: First, 
money. After more than a decade on the board, I believe that 
NSF's budget needs an out-of-cycle adjustment. In this century 
it has not kept up with economic growth even as the economy has 
become more dependent on knowledge and technology-intensive 
industries. The proposed budget is a $1 billion cut. This would 
meet even more great ideas left on the table for others to find 
and make it increasingly hard for American scientists and 
engineers to be the vanguard of science and engineering 
infrastructure.
    Dr. Cordova and her team have done an exceptional job of 
preserving balance and continuing to chart a course for 
impactful science that serves this country. But my 30 years of 
experience as a computer scientist and more than a decade on 
the board has left me with one conclusion. We are eating our 
seed corn.
    Second, we need a long-term strategy. OSTP Director Kelvin 
Droegemeier has called for a holistic assessment of the 
Nation's science and engineering enterprise to help match our 
strategic priorities with our investments. I think this is a 
good idea, and I hope that will jumpstart a broader 
conversation about the challenges and opportunities facing our 
country in science and engineering.
    For its part, NSF has already started to think in new ways. 
Under the leadership of Doctor Cordova, NSF has identified 10 
Big Ideas, including preparing the future of work in a world 
with AI. Harnessing the data revolution is equally important. 
The board agrees that gathering researchers from across 
disciplines to tackle timely challenges will ensure that the 
agency's impact exceeds the sum of its parts.
    Our strategy must include a commitment to ensuring that 
America has a STEM-capable workforce. We need to draw on the 
abilities and creativity of all of our citizens. This means 
improving and broadening STEM education and providing the 
problem-solving skills required in a job market often driven by 
advances in science and engineering.
    Third, values. To remain a leader, global leader in S&E, we 
need to recognize that America has not led with dollars alone. 
We also lead by showing the world what a healthy research 
environment looks like. We should embrace American traditions 
of exploration, risk-taking, openness, and transparency. We 
should have no tolerance for sexual harassment or fraud. We 
should aspire to remain the shining beacon on the hill that 
invites the best minds from around the world to come here and 
perform research and innovate.
    This does not mean naivete. We must protect our national 
security. NSB applauds efforts taken and steps taken by NSF and 
others to ensure and enforce existing conflict policies and 
enhance awareness of security concerns at universities. But our 
national security depends strongly on our leadership in science 
and engineering, which in turn is built on fundamental research 
and the free exchange of ideas.
    Fourth, inspiration. We need the support of many leaders, 
including you, to inspire the next generation to be curious and 
to build the future. My generation was inspired by President 
Kennedy's call to explore the next frontier. Now excitement 
arises from new technologies and competition everywhere we 
look. It is on us to convey our appreciation and our 
understanding of the opportunities in science and engineering 
to back up that voice with a strategy and a sustained 
commitment to say to our citizens and to the world great ideas 
are born here.
    I thank you for your time and look forward to your 
questions.
    [The prepared statement of Dr. Souvaine follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Fabulous. At this time we will begin 
the questions, and the Chair will recognize herself for 5 
minutes.
    Dr. Souvaine, in 2017, the National Science Board created a 
Task Force on the Skilled Technical Workforce charged with 
making policy recommendations to support workers that use STEM 
knowledge and skills on the job without the need for a 
bachelor's degree if I have that right. Can you update us on 
the activities undertaken by the task force, and could you also 
expound on when we can expect to find a summary of its findings 
and recommendations?
    Dr. Souvaine. Yes. The task force will be reporting out to 
the board in our board meeting next week and sharing a draft of 
the proposal--the proposed findings. We expect that the final 
report, with luck, is released at the end of June, and we would 
be happy to share those results earlier.
    Our work is comprised of multiple components. We've had 
listening sessions around the country to listen to students, 
faculty, members of industry, members of administrations of 
community colleges over the course of the 18 months we've been 
working on this. We've also been doing a lot of data gathering, 
working with NCSES, so there are multiple facets to this.
    Chairwoman Stevens. And I applaud both your efforts to push 
the boundaries of scientific discovery through the Big Ideas 
and Convergence Accelerator. Dedicating funds for these efforts 
is clearly important, and it also certainly means tradeoffs 
with other programs supported by NSF, including core research 
programs and potentially, you know, troubling support for 
graduate and undergraduate education and training through the 
Graduate Research Fellowship Program and Research Experiences 
for Undergraduates, which NSF administers. Both programs would 
see a substantial cut if the current budget were enacted.
    I'd like you both to address two questions. One, how does 
the agency balance support for convergent research with support 
for the core research programs; and, two, how important is it 
to provide research experiences to undergraduates and dedicated 
support to graduate students? How will the Big Ideas and other 
convergence efforts support education and training for these 
students?
    Dr. Cordova. I'll start. Thank you for the question. The 
Big Ideas grew out of a desire to give a more strategic 
framework to NSF's ideas for what requires future investment. 
They all grew out of the core, and they'll eventually go back 
into the core.
    For example, take the Quantum Leap. NSF has been funding 
quantum research for the past three decades, and in fact 31 
Nobel Prize winners for their quantum research achievements 
have been funded by the National Science Foundation over the 
past 30 years. And so it's not new.
    What is new is the emphasis on how important quantum, 
especially its marriage with information sciences, is to the 
future of the country to get going fast and to accelerate it. 
And this acceleration depends on a convergent approach, that we 
need the computational scientists, we need the physical 
scientists, we need the engineers all coming together in order 
to make progress even faster along this trajectory.
    And you can take any of the Big Ideas--Rules of Life, for 
example, is integrated into all of the biological sciences. 
It's really what they're looking for. So how do you get from 
the genome and its environment to phenotype? And that's 
important for agriculture; it's important for all the science 
we do.
    So in all of the Big Ideas we are clearly funding faculty 
and researchers and their students, and, yes, it is involving 
the young people who will be the leaders of the future in these 
big, strategically important areas for the country.
    It's interesting to me that exactly 3 years ago we 
introduced the Big Ideas to the National Science Board, which 
said, ``have Big Ideas.'' The board has embraced them and, in 
the meantime, we had a transition in administration. The new 
administration has taken them on with a passion: Artificial 
intelligence, quantum information science, advanced 
manufacturing, and the future of work. So it seems that NSF was 
prescient in taking those ideas out of the core and giving them 
much more significance because that's where our country is 
headed, and frankly, it's where the whole world is headed. 
There's some fierce competition in this idea space.
    Dr. Souvaine. Briefly, we need to find the best ideas 
wherever they arise and be able to be driven bottom up. At the 
same time we need to foster great opportunities of both 
convergence across areas but strategic areas that are timely, 
so this is--I concur with what Dr. Cordova just said. I also 
think that we need--and we'll come back to this, I'm sure--a 
broader pipeline of people going into science and engineering 
at all different levels.
    So for me the funding of undergraduate research is 
critical. This is what does the inspiring I was talking about 
and gets undergraduates to move forward. We need to be funding 
more graduate students from all backgrounds from across the 
country who want to come and study, and the fellowships are 
critical.
    Chairwoman Stevens. Well, we want to certainly continue to 
make sure that those opportunities and onramps for those 
opportunities are taking place here in the United States.
    I'm over time, so with that, I'd like to recognize our 
Ranking Member, Mr. Baird, for 5 minutes of questions.
    Mr. Baird. Thank you, Madam Chair.
    Dr. Cordova, in December the President signed into law the 
National Quantum Initiative Act, and as you know from your 
tenure at Purdue University, it was one of the first 
institutions to establish a quantum research center and it's 
well-positioned to help advance these new initiatives. Could 
you update us on how NSF is responding to the new law and what 
opportunities will be there for institutions like Purdue to 
participate?
    Dr. Cordova. Certainly, thank you. So a number of the 
agencies have been funding--especially NSF and NIST--quantum 
research for a long time. Other agencies are revving up like 
the Department of Energy. They're funding as well. We all came 
together with the Office of Science and Technology Policy to 
produce a strategic plan for quantum information sciences in 
particular, which has terrific opportunities in the area of 
computing, which will be a gamechanger for how we do anything 
that involves computations.
    Congress, at the same time, passed this initiative so all 
of this was rolled out at the same time. The White House had a 
summit at which agency heads like myself spoke, and we gathered 
researchers from Purdue and many universities around the 
country to talk about their efforts. We fund a number of 
centers, NSF does, around the country in quantum research in 
general, and we all talked about how to accelerate those 
efforts because it's so important and so competitive globally 
that we do so.
    As far as the law goes, OSTP is coordinating this effort 
with all the agencies. There's a coordinating group that's been 
set up under the leadership of Jake Taylor. We are all coming 
together periodically to share what we're doing and to 
coordinate those efforts around the country.
    NSF is funding a lot of new efforts and centers and 
activity. For example, one is a collection of about 15 
universities to build the first fully functional quantum 
computer. There's just a lot of energy around this, and we're 
really glad that Congress is so enthusiastic about positioning 
the United States to be the global leader in this area.
    Mr. Baird. I have another question, and maybe both of you 
can respond to this as well. Last week this Committee held a 
roundtable with Federal agencies focused on artificial 
intelligence and research, including NSF. Can you discuss what 
type of strategy you think is needed to maintain the U.S. 
leadership in the AI field?
    Dr. Cordova. Our artificial intelligence, like quantum 
research, is just an extremely productive, vigorous area of 
research in all kinds of ways in the United States and 
globally.
    I co-chair an entity called the Select Committee on 
Artificial Intelligence, together with the head of DARPA, for 
the Office of Science and Technology Policy. Again, it's a 
collection of agencies that come to discuss what we are doing 
and what we can do together to further position the United 
States.
    The National Science Foundation is spending in this Fiscal 
Year 2020 budget alone about $492 million on artificial 
intelligence writ broadly, and that's a big investment for the 
size of our budget. We are collaborating with industry and 
foundations and others in several very important partnerships, 
for example, on the ethics, fairness, and bias in everything 
that surrounds AI to make sure we do it in the right way. We 
have a collaboration with a group called the Partnership in 
AI--which is about 50 industries and others that we're working 
with--and we are asking for proposals, and we will co-fund 
those proposals.
    We're also working with Amazon. It's our first such 
partnership in which Amazon is providing $10 million and NSF 
$10 million over the next 3 years to ask for proposals from the 
scientific community writ broadly to deal with issues around 
artificial intelligence. As my colleague Dr. Souvaine said, our 
Future of Work Big Idea is really being done within the 
framework of how artificial intelligence will affect the future 
of work. That's not just the future of work in the factory. 
That's the future of work in the classroom for teachers ad how 
it will help them. It's the future of work in assisted living 
and in all places where people conduct their work.
    Dr. Souvaine. I think that our funding and investment in 
artificial intelligence needs to be commensurate with our 
national goals and aspirations, and we need to think about that 
as we go forward.
    Mr. Baird. Thank you. And, Dr. Souvaine, I noticed your 
analogy about eating our seed corn, and I'm out of time but 
maybe I'll have a chance to ask that question, what you meant 
by eating our seed corn. I think I understand. Thank you.
    Chairwoman Stevens. Excellent. At this time I'd like to 
recognize my colleague Ms. Sherrill for 5 minutes of questions.
    Ms. Sherrill. Well, thank you both for coming here today. 
I'd like to applaud the historical bipartisan support for the 
NSF of this Committee. But I couldn't agree more with Ranking 
Member Lucas that we need to do more to educate the American 
people on the benefits of research and the need for good 
research to keep our economy ahead.
    But talking a bit about what you said, Dr. Souvaine, you 
kind of touched on this. Often, the transfer of knowledge and 
technology between countries can be mutually beneficial. 
Historically, we benefited even from scientific cooperation 
with our geopolitical adversaries. Our economic competitiveness 
and national security are threatened, however, when our Federal 
investments in R&D, especially in emerging technologies, are 
transferred to another country through coercion, theft, or 
espionage. The Inspector General recently highlighted the 
agency's response to the national security threat of foreign 
talent as an emerging management challenge.
    What steps is NSF taking to ensure its research investments 
are protected from these threats? And you both--if you could 
both answer that.
    Dr. Souvaine. I'll defer very soon to Dr. Cordova on that, 
but I think that we want to be good partners with all countries 
where we're good partners, and that requires some of the values 
that I was referring to earlier. Clearly, this country benefits 
substantively from all of the people from around the world who 
come here to do great science. We benefit from the great 
partnerships with scientists across the world. Fundamental 
research requires transparency and engagement, exchange of 
ideas, which then can blossom. We do have to protect things.
    And as I referred to in my opening remarks, I think NSF is 
working hard with universities, and our board statement 
reiterated that universities must be on top of their conflict-
of-interest and conflict-of-commitment policies and we need to 
be working harder to make sure those are always honored.
    Dr. Cordova?
    Dr. Cordova. Yes, Congresswoman, one of the crucial issues 
of our time is this balance between openness that has brought 
us so far intellectually as a country and given us so much and 
protecting research in the research environment.
    I'll just mention four steps that the National Science 
Foundation is doing. About a year ago we changed the 
requirement for rotators. We have close to 200 rotators who 
come in from universities, and they're in positions from 
Program Officers to Assistant Directors. They provide great 
value. We changed the requirement to be consistent with the 
Federal requirement that they be U.S. citizens or applying for 
U.S. citizenship. We didn't have that requirement before. 
That's one thing.
    Since 1978, we've required complete disclosure forms from 
all our applicants for research grants. We haven't been so good 
about the requirements for what those disclosure forms should 
look like or monitoring, assessing, and auditing them. So we 
are tightening up our disclosure forms.
    We're establishing an easily computer-read disclosure form. 
We call it a bio-bib because it has the bibliography and 
biography. It has all forms of support that the researcher 
could get either from here or from anywhere else--in a very 
clear format. It would be uniform so a person only has to do it 
once and then update it. Machines could easily read it and look 
for whatever was of interest there. So we think this will go a 
long way to streamlining and enhancing what we know about other 
forms of support that proposers can have.
    We are asking an expert committee called the Jasons to do a 
risk assessment on research protection because we need to know. 
As we take more steps to protect the integrity of research, we 
need to be careful that we don't overdo something or underdo 
it. You really have to understand what the risks are out there, 
and these are all people with top security clearances. We'll 
have that piece of work done hopefully this summer.
    And then finally, we're working with the National Academies 
of course, which has a lot of expert people on it. We'll have a 
meeting this Friday at the National Academies, an entire half-
day on this subject and see where to go from here and talk 
about what is needed.
    The important thing is 85 percent of our clients--our 
grantees--are universities. It's important that we engage the 
leadership of universities so that they are very aware of 
what's going on and that they're very much partners with us. 
And many universities--we mentioned Purdue earlier is an 
example of one that has really taken this very seriously--have 
security people there. But not all universities do, and so 
we're trying--we're working on that front as well.
    Ms. Sherrill. Well, thank you. My time is expired, but I 
hope you are--conversely, you know, also worried about 
overprotection, and it sounds like you're very aware of that as 
well. Thank you so much.
    Chairwoman Stevens. Thank you. At this time we'd like to 
recognize Mr. Lucas for 5 minutes of questioning.
    Mr. Lucas. Thank you, Chair. I couldn't help but, as Dr. 
Baird was pursuing his line of inquiry, think about, Dr. 
Cordova, one of those areas that I have great interest in, 
which of course is the National Science Foundation's 
Established Program to Stimulate Competitive Research, EPSCoR 
affectionately known to all of us, which aims to assist States 
and universities in rural areas, underserved areas. It was 
updated by Congress 2 years ago based on outside panel 
recommendations. Could you visit for a moment about how NSF is 
implementing these changes and making sure the program is best 
serving rural States, yes, like Oklahoma, too?
    Dr. Cordova. We are very, very proud of the EPSCoR 
program--very pleased with its results. As you know, there have 
been graduates from the program, so it has done what it 
intended to do. There have been several of those States that 
have achieved more capacity to do more research, and so that's 
great. We are constantly reviewing the program, tooling it up 
for more and better collaborations.
    What I've seen over the last few years is that we've 
reached out to assimilate other NSF programs within the EPSCoR 
program, for example, artificial intelligence or quantum or 
STEM education, and made sure that the EPSCoR proposers had the 
opportunities to be in those areas as well. I think things are 
going very well in the EPSCoR program, and we certainly would 
like the feedback of any members.
    I go out a lot to EPSCoR States and I just see the kinds of 
things they're achieving, and again, I'm very proud that 
Congress stood up that program.
    Mr. Lucas. Absolutely. Dr. Cordova, I share Chairwoman 
Johnson's concerns about a STEM-ready workforce, and it appears 
that many American companies are in desperate need of those 
kind of individuals, STEM-ready. You recently worked with the 
Administration on a new 5-year strategy for STEM education 
across the Federal Government. How will this plan help address 
those industry needs?
    Dr. Cordova. Yes, in early December the White House office 
of OSTP rolled out the STEM education plan, and agencies all 
had a lot of fingerprints on it. I think it's just a great 
plan. It actually speaks to, among other things, the need for a 
diverse and inclusive workforce. There's a lot of emphasis on 
programs like our INCLUDES programs that is broadening 
participation that will help get us there.
    And at the time of the rollout of the STEM education plan, 
we were pleased to report that five other agencies of the 
Federal Government, including NIH and NASA, NIST, USGS, were 
joining the INCLUDES program to broaden participation. I think 
STEM education is, of course, a great way to do that.
    Other elements of the plan really articulate the need for a 
skilled technical workforce. As was mentioned in the earlier 
conversation, the Board and NSF are working very hard to 
increase the attention on the need for a skilled technical 
workforce.
    I did mention in my opening remarks the Advanced 
Technological Education program, which we've had for 25-plus 
years at NSF. That is mostly in community colleges, and its 
whole focus is on skilling the workforce. The President has a 
special committee on the American worker, and that is very, 
very focused on reskilling and upskilling the workforce for the 
technical jobs of the future.
    So I've seen in just the last few years a tremendous 
emphasis in that direction. I think our National Science Board 
has rightly pointed out that we should increase and even 
accelerate those efforts. In fact, one other thing I'd like to 
mention is we have a statistical agency at NSF called NCSES, 
the National Center for Science and Engineering Statistics. 
They have taken on a new effort to assess what is the current 
situation for skilled workers, how many do we have, where are 
they located, what do industries need for the future? Where are 
the gaps and all? So I think we're going to see a lot more 
emphasis on this as we go forward.
    Mr. Lucas. Dr. Souvaine, could you share for just a moment 
the board's perspective on this, too?
    Dr. Souvaine. Certainly. I think that since September 2018 
when we started our skilled technical workforce task force, I 
think we've been looking very hard at the issue of the needs of 
skilled technical workers across all levels. I can think of one 
of the listening sessions we did at Macomb Community College in 
Michigan where there were members of industry that were there 
that had many, many jobs available open at the EDK level or 
higher but didn't have the right applicants to be able to fill 
them.
    And this partnership, which came through an ATE program 
funded by NSF together with the local industry, together with 
the local community colleges, more than just Macomb, were doing 
something about drawing students in and trying to partner with 
them and have them learn the skills that they need with 2 years 
of training to be able to go on and enter these important jobs, 
maybe then going on later to a 4-year college or graduate 
school or something else, but entering the workforce and 
addressing this critical need.
    Certainly, when we visited LIGO in Louisiana, we had the 
privilege of talking with David Barker there, who was 
responsible for the two-story HVAC system. And without this 
system, which is far more technically complex than an HVAC 
system was 10 years ago or 20 years ago, certainly the Nobel 
Prize winners would not have been able to get the Nobel Prize 
without that. There's a real--there is a real need there.
    Mr. Lucas. Thank you, Doctor. And thank you, Madam Chair.
    Chairwoman Stevens. At this time we'd like to now recognize 
Dr. Bill Foster for 5 minutes of questioning.
    Mr. Foster. Thank you, Madam Chair, and thank you to our 
witnesses.
    I'd like to speak a little bit about the issue with the 
Jasons that I believe you're familiar with. And for those of my 
colleagues who may not be, from I guess since the 1960s, the 
Jasons have been a group of very accomplished Nobel prize-
winning-level scientists, mainly physicists, who provided 
confidential advice to the government, often very classified, 
very classified, so with everything from, you know, modern 
concerns like pit lifetimes or electronic warfare to I think 
back in the earlier years they provided an estimate or a second 
opinion to an Administration on whether or not it was a good 
idea to use nuclear weapons in Vietnam, which apparently the 
Administration at the time needed advice on.
    And so it was a sort of shock to the scientific community a 
few weeks ago to learn that the Department of Defense had 
actually canceled the umbrella contract for the Jasons. And so 
this is a real source of concern because, you know, it's very 
often that those at agencies don't have the technical expertise 
particularly about speculative future technologies and need to 
be able to quietly ask a question that, you know, is this a 
concern, what are the possible things, you know, without having 
that, you know, become a source of, you know, public 
embarrassment if it turns out the question they're asking is--
you know, sounds--could be made to sound, you know, not too 
sophisticated. And so, you know, I think the scientific 
community really values this as a communication channel.
    And it's my understanding also that the National Science 
Foundation was specifically looking at contracting with the 
Jasons to deal with this very tough problem that you're facing 
that, although the NSF has historically done non-classified 
research and published the results in the open literature, so 
many of the technologies now are dual use, you know, everything 
from biotech to artificial intelligence, you name it.
    And so, first off, it's my understanding that there is a 
temporary fix to this, that instead of the Department of 
Defense canceling the budget, that it has been at least for 
this Fiscal Year transferred to the Department of Energy and 
NSA to keep the umbrella contract alive? Is that also----
    Dr. Cordova. Our understanding is the Department of Energy, 
specifically NNSA, is looking to have a 9-month contract, that 
it is not fully completed yet. They're still in discussion. But 
we expect that that will happen, and that will get them through 
their summer studies. As you know, that's when they do their 
work because they have day jobs at universities.
    And we had proposed a summer study on research protection 
on assessing the risk in this current climate of trying to make 
sure that our research has integrity and looking at the 
situation vis-a-vis other countries and seeing what steps the 
National Science Foundation should be taking in order to make 
sure the research is secure.
    Mr. Foster. So at present you view at least the short term 
fix as adequate? Because, you know, one of the things that I 
think we're going to have to be working on in Congress is to 
make sure there's a long-term home for the funding here, that 
this is not something that gets, you know, jerked around and 
canceled and uncanceled continuously because the cancellation 
was only weeks before you had your kickoff with--my 
understanding, the kickoff meeting where these summer studies 
would have started.
    Dr. Cordova. It is true that the Jasons have done a study 
for us in the past, and we could all use expert advice.
    Mr. Foster. Yes. So if you see anything that changes where 
that is once again put at risk, please, you know, let Congress 
know quickly and make that request because this is important.
    Now, in terms of the gist of what you'd ask the Jason to 
look at, and, Dr. Souvaine, you were quoted at a recent Science 
magazine article as being concerned about, you know, the policy 
implications of the fact that there are countries now targeting 
the United States for, I don't know whether you'd call it 
technology transfer or theft or whatever, and that, because of 
the dual-use nature of many NSF-sponsored technologies, is 
there anything you can say about your thinking on how we should 
respond to that?
    Dr. Souvaine. I don't recall the exact reference you've 
raised, but certainly we are concerned about intellectual 
espionage, and NSF's OIG has found cases where this has 
happened. And--but as the board said in our formal statement 
last year, American technological preeminence is also critical 
for our economy and security, and we need to recognize that 
that's based on our leadership in fundamental research. And for 
that, creativity and collaboration and the free exchange of 
ideas are essential.
    To paraphrase President Reagan's National Security Decision 
Directive 189, it's important that fundamental research remain 
unrestricted the maximum extent possible. So how do you balance 
that? I think partly what Dr. Cordova was just talking about in 
terms of making sure that universities are putting the 
protections in place or reactivating them if they had slipped a 
little bit is important.
    And they've adjusted, as she said, the rules for IPOs. It's 
also true that NSF's current proposal guide now has some 
changes in it like one is if a proposal includes funding to be 
provided to an international branch of a U.S. institution of 
higher education, including through use of subawards and 
consultant arrangements, the proposer must explain the benefits 
to the project of the performance done at that international 
branch campus and justify why the project activities cannot be 
performed at the U.S. campus.
    So I think there's a real work in place at providing 
balance. I think, obviously, the Jason study is going to be 
very helpful in looking at next steps.
    Mr. Foster. Yes. No, this is a tough issue that we're going 
to be grappling with for a while.
    Dr. Cordova. For the record, I want to be sure just to 
clarify one thing. I think what Dr. Souvaine meant was that 
other agencies, specifically the NIH, have found instances of 
espionage. We have not at NSF. Definitely, we are working very 
closely with our Inspector General on this, and there are 
vulnerabilities, which is why we'd like to hire the Jasons to 
look at what are the risks, what are those vulnerabilities and 
understand them better.
    Mr. Foster. Well, thank you. I appreciate your thoughtful, 
you know, work on this because it's a tough issue, and yield 
back.
    Chairwoman Stevens. At this time we'd like to recognize Mr. 
Marshall for 5 minutes of questioning.
    Mr. Marshall. Yes, think you so much, Madam Chairwoman.
    I'll start with Dr. Cordova. I'm a proud community college 
graduate, as well as a university undergraduate degree and a 
medical degree, so very proud of all those institutions in 
Kansas.
    I know recently Seward County Community College told me 
they were doing some research funded, I believe, through NSF. 
Just kind of tell me what your vision is, how it's going. Has 
this been going on a long time using NSF funding at community 
colleges or where do you think it's going?
    Dr. Cordova. We've been funding, for just over 25 years 
through our Advanced Technological Education program, community 
colleges. That's not the only program we have in community 
colleges of course. We are completely open to really good 
proposals and good ideas through our merit-review process. We 
then triage which are the best ideas, and we fund them. And 
they can come from wherever.
    But we have a specific community college program called 
ATE, Advanced Technological Education. This has proven just a 
great program for students who might not want to have a 4-year 
degree or become a Ph.D. but want to go into the skilled 
technical workforce.
    I've visited a couple of these, and I'm just so impressed 
by the facilities that they have and the enthusiasm of 
students, and they're getting a really, really fine education 
from the faculty. Faculty are just very, very committed to this 
kind of training.
    We also have programs in STEM education which give research 
experiences for community college students to come, say, for 
the summer and work at a 4-year college. So it makes the 
transition, should they wish to go from community college to a 
4-year institution, easier and smoother. They already know a 
laboratory and some faculty and so on.
    Mr. Marshall. If you had never done this before within your 
department, what branch carries this out? Who would they 
contact?
    Dr. Cordova. Oh, it's in Education and Human Resources, 
EHR.
    Mr. Marshall. Right.
    Dr. Cordova. They can contact me. That's what we have the 
forward button on our computers for.
    Mr. Marshall. Well, I understand.
    Dr. Cordova. I'll be happy to help.
    Mr. Marshall. OK. I want to talk a little bit about your 
interaction with the private sector. I'm always concerned that 
we're doing research just for the sake of research, and I also 
believe within a system or goal, it's either getting better or 
worse. What are we doing to improve relationship with private 
industry and helping promote sharing the knowledge that we have 
for innovators to keep innovating?
    Dr. Cordova. We have a lot of partnerships with industries 
at all levels. We have about 100 active partnerships and about 
another 100 under some form of discussion. Perhaps our biggest, 
most recent partnership, is with Boeing, and it's on two 
things. One is on upping online education in engineering. It's 
in the production realm, and it's how to increase access for 
people to get online education to up their engineering skills. 
Boeing is very interested in that, so they have given us $10 
million, which we've matched with $10 million.
    They gave us another $1 million for our INCLUDES program 
that I mentioned earlier, which is broadening participation. 
This is specifically for women to reenter the workforce after 
they've taken time off and they want to reenter the STEM 
engineering workforce.
    Another partnership is with Amazon. That is on artificial 
intelligence and it's a 3-year program. Again, $10 million from 
Amazon and $10 million from us. It's to invite proposals that 
look at the ethical framework for artificial intelligence to 
make sure that we have, as Dr. Souvaine talked about earlier, 
our American values as we construct the infrastructure for 
artificial intelligence.
    We have collaborations with Google, with all the big 
internet companies, and we have collaborations, of course, 
through our SBIR program, Small Business Innovative Research. 
We're funding a lot of really frontline research on all kinds 
of science and engineering projects.
    Mr. Marshall. I want to try to jump in and get one more 
quick question in. The cost to do research per unit certainly I 
think would vary from place to place. How do you factor that in 
or do you at all?
    Dr. Cordova. Yes. You mean when proposals come in?
    Mr. Marshall. Right. I would just assume that research per 
unit would be cheaper at a place where the labor costs are less 
and the----
    Dr. Cordova. Oh.
    Mr. Marshall [continuing]. Electricity is less and some of 
those things.
    Dr. Cordova. OK. I understand. So we have a merit-review 
system which is world-class. Other countries copy that. It has 
been refined over the 70 years that we've been around. That 
process looks at two things. It only looks at the budget later. 
It looks at intellectual merit, and it looks at broader impact. 
Then it gives a score for those two things and that's how we 
approve a proposal. Then we look at the budget and does it make 
sense. We review it in detail and we have lots of discussions 
with the proposers--can you do it for less or do you really 
think this is the right budget, and so forth. But it's only 
after considering those other aspects that we look at the 
budget.
    Chairwoman Stevens. At this time we'd--and thank you, Dr. 
Marshall.
    At this time we'd like to recognize Dr. Lipinski for 5 
minutes of questioning.
    Mr. Lipinski. Thank you, Madam Chair. Dr. Cordova, Dr. 
Souvaine, thank you for your work. You both know how much I 
appreciate the NSF and the great work that the NSF does and the 
work that both of you do, so I've always been a very strong 
supporter of the NSF. And my questions are not going to be a 
surprise you what I'm going to ask about.
    And the first is about I-Corps because I've been a big 
champion of I-Corps, Innovation Corps, since the NSF started 
it. I think it's really important that we do what we can to 
help get the great work--you know, turn to the great work 
that's being done through the research at our universities and 
also our national labs into new products and services.
    So I'm pleased that the FY 2020 budget request indicates 
that NSF plans to expand I-Corps by increasing the number of 
sites and nodes, and fostering a national innovation network.
    So my question is--and I know the overall budget is very 
difficult, you know, the small increase for I-Corps, but I 
wanted to know how you're going to balance the--Dr. Cordova, 
how you're going to balance the number of entrepreneur teams 
funded with new I-Corps sites and nodes if there is not a 
substantial funding increase.
    Dr. Cordova. Thank you for your enthusiasm of our I-Corps. 
This is a program that's only about half a dozen years old, and 
it's already yielded over 500 new startup companies. And what 
it's really changed I think is the whole idea that faculty have 
that research can really be accelerated, and how do you do that 
acceleration? And so I think it's a culture changer, as well as 
given opportunities to new entrants to start their own 
businesses. When I've gone around universities, I've seen women 
and underrepresented minorities be some of the I-Corps 
participants who are then starting their own businesses. It's 
just a gamechanger.
    We will do the best that we can by I-Corps. You've noticed 
that we've held the budget relatively flat even though we have 
$1 billion less in this proposal than we presently have to work 
with. But I-Corps--because it's worked so well in such a short 
time--has also influenced the way we do a number of our other 
programs. For example, our Convergence Accelerator has an I-
Corps component to it because it's all really about how do you 
get research to translate faster into public good. And I-Corps 
was a way that showed us how to do that.
    Mr. Lipinski. Thank you. I wanted to move on to AI. Let me 
just say I appreciate the fact, as I said, that the budget is 
tough and the fact that I-Corps gets a small increase relative 
to everything else. I appreciate that commitment from the NSF 
to I-Corps and hope that continues to have that strong 
commitment.
    I know that Ranking Member Baird talked a little bit about 
AI and asked a question about AI and social sciences. I have a 
bill right now that would coordinate AI R&D across agencies. 
And you know also the other thing I've been very focused on is 
social science research and the importance of social science 
research. I know you talked a little bit about that with regard 
to AI.
    But one other aspect of that is what about the societal 
impacts of AI-enabled devices? Is this something that is going 
to be a focus of NSF-funded research?
    Dr. Cordova. Absolutely. I mentioned a couple of new 
programs that we've offered or solicitations for proposals. One 
is the combination of the Social, Behavioral, and Economic 
Sciences Directorate with our Computer and Information Science 
and Engineering Directorate and an entity called the 
Partnership for AI, which is 50 industries and others. 
Together, they've pooled resources to ask for proposals in 
doing just that--to look at the ethical framework and the 
impact of AI on society, anything to do with AI and people and 
how it's going to affect them, but making sure that we have 
unbiased, transparent, fair approaches to artificial 
intelligence.
    And one that's very similar is our collaboration with 
Amazon. This $20 million collaboration over the next 3 years 
where, again, it's the social and behavioral sciences and the 
computer and information sciences that are requesting proposals 
for ethical framework, impact framework for artificial 
intelligence. So I think we're going to see--we just welcome, 
as you know, all great proposals--and we'll see what we get. 
I'll be happy to report to you later what some of the more 
interesting proposals that we get along those lines.
    Mr. Lipinski. Thank you. And, very quickly, Dr. Souvaine, 
do you have anything to add on either of those? You don't have 
to. I just wanted to give you the opportunity.
    Dr. Souvaine. I think the board is very interested in 
looking at AI, and we had a plenary session last July about it. 
I think trustworthy AI is important, and we have to make sure 
that we're incorporating ethical and other kinds of social and 
behavioral questions into our development of AI.
    Mr. Lipinski. Great. Thank you, and I yield back.
    Chairwoman Stevens. Thank you, Dr. Lipinski. And now I'd 
like to recognize my colleague from Ohio, Mr. Gonzalez, for 5 
minutes of questioning.
    Mr. Gonzalez. Thank you, Madam Chair. Thank you to our 
witnesses not only for being here but for your incredible 
leadership in helping maintain our innovative edge in the 
United States.
    I've been clear on this Committee from day one that I 
believe basic research is critical to our economic future, and 
I look forward to continuing to support NSF and all the great 
work that you do.
    My biggest concern right now is that we're going to fund 
the programs--and I believe we will--but that we are still 
vulnerable to threats specifically from China. Just last month, 
FBI Director Christopher Wray pointed to the multilayered 
threat posed by China, went on to say that no country 
represents a more severe intelligence collection threat than 
China and that China has pioneered an approach to stealing our 
innovation from a wide array of businesses, universities, and 
organizations.
    Dr. Cordova, you mentioned that NSF has not found any 
violations yet. I'm concerned, frankly, that means that we 
haven't looked hard enough because I just don't believe that 
China had--I've heard anecdotal stories, but that they are not 
actively trying to take our innovation. Can you speak a little 
bit more to that? How confident are you that, even though you 
haven't found anything, that it's not occurring?
    Dr. Cordova. I'm not.
    Mr. Gonzalez. OK.
    Dr. Cordova. And you're absolutely right. We actually have 
a new research protection group within NSF that's chaired by 
one of the people in my office. It's people across the whole 
agency to look at ways that we can tighten our procedures in 
order to mitigate against that.
    We are working very closely with the Inspector General. 
They have their own people in charge in this area, and we're 
talking together about what we can do and how to approach this 
and where there might be vulnerabilities.
    I mentioned earlier one of them is in the whole disclosure 
business. We do have, in theory, if everybody were disclosing 
properly----
    Mr. Gonzalez. Yes.
    Dr. Cordova [continuing]. All their relationships. Then we 
would know how to tighten those procedures, too. So, yes, we're 
really working on it. And I also mentioned we'll have this 
meeting at the National Academies. We attend many FBI and CIA 
meetings, so we're on it. We just want to be careful, as we 
talked about earlier.
    Mr. Gonzalez. Yes.
    Dr. Cordova.You just don't want to go overboard in one 
direction. You want to be sure that there's a balance there.
    Mr. Gonzalez. Absolutely.
    Dr. Cordova. Sure.
    Mr. Gonzalez. And thank you. I don't mean to be quick with 
it----
    Dr. Cordova. Sure.
    Mr. Gonzalez [continuing]. But I will say before I move on 
to my next question I look forward to working with everybody on 
the Committee and with both of you to make sure that we can 
strike that right balance. We can get this right, we absolutely 
can, and so I look forward to that.
    Now I want to shift briefly to talent specifically in AI. I 
ran a technology company at one point in my life, and the value 
of an A-plus engineer versus a B engineer is actually 10X, 15X. 
I'm seeing the heads nod, so agreement there. I guess my 
question would be from a talent-management standpoint in NSF 
when the Googles and Facebooks of the world can pay pretty 
crazy sums to our engineers, how are we competing for talent 
and making sure that our talent stays in the NSF or is working 
on the problems that we need them to work on specific to AI?
    Dr. Cordova. We have this rotator program that I 
mentioned----
    Mr. Gonzalez. Yes.
    Dr. Cordova [continuing]. Where we can bring people in. The 
majority of them come from universities. There's no reason why 
they can't come from industry as well and work with us and 
share. It is just an amazing program that we have with NSF.
    Mr. Gonzalez. To get it to industry, would that require a 
congressional fix or is that something within your purview to--
--
    Dr. Cordova. No, it's within our purview.
    Mr. Gonzalez. OK.
    Dr. Cordova. We of course, you know, just do the conflict 
of interest----
    Mr. Gonzalez. Right.
    Dr. Cordova [continuing]. But, no, absolutely. And now, 
what we're seeing in universities is there's more churn there, 
too, with people coming from industry into universities, 
leaving for a while, teaching, et cetera, then going back to 
industry and so on. So I think the circulation of brain talent 
is going to happen more and more.
    Mr. Gonzalez. OK. Great. So the rotator program sounds like 
it'll be a big plus for us.
    And then, Dr. Souvaine, I want to shift to something that 
you said when you're talking about American leadership. And I 
don't want to necessarily prime you, but another priority of 
mine is to make sure that we're promoting STEM for women in 
STEM. And you made a specific comment about having no tolerance 
for harassment, completely, 1,000 percent agree. How can we do 
a better job of making sure that we are fostering an 
environment that is more conducive to women in STEM?
    Dr. Souvaine. It's complicated. I think we've been working 
at that for quite some time. I can think back to when I was a 
young researcher, coming to NSF was always wonderful because 
NSF got it early, and there were women in the building. In lots 
of places I went, there weren't any women in the building, so 
it was always pleasant to visit NSF.
    And I think if we look at some statistics, it looks like 
we're not making much advancement on having women in science 
and engineering. And yet if you look at the numbers, the 
numbers are going up. It's just that the growth of the 
workforce in science and engineering is going up faster than 
the number of women.
    I think we have to have a textured approach. I think we 
need to look at multi-facets. And part of that sometimes can 
also be looking at little things. I know this will sound maybe 
trivial, but I remember being on a faculty search committee and 
going to the first meeting where people said that they had 
already previewed the applications and they culled them down to 
just those that had the right number of publications in the top 
journals. I said that's wonderful. I'd love to redo the count. 
And they said, wait a minute, no, no, we know the top--I said 
you know the top journals but I'd like to do it by page count, 
not on numbers of papers. And they said it's the same thing, 
the journals published.
    I said no, it's not the same thing because often the woman 
or the person of color or the first-generation college goer 
will collate more results into one paper so that when they 
submit it, they have confidence it's going to be accepted, and 
they said I don't believe that, but we'll recount. We got back 
the next week, and there were five more women in the pool, one 
Native American and one African-American just by looking at the 
longer--and the journals aren't going to throw pages at 
somebody.
    Mr. Gonzalez. Yes.
    Dr. Souvaine. We may need to have the passion that NSF has 
had to understand it's important to take steps to do things 
within the foundation, but we need universities, we need 
industry people, we need everyone to try to look at different 
biases that could also feed into the AI question we had earlier 
that might be not recognizing the talents of people that we 
are--actually have.
    Mr. Gonzalez. Great. Well, thank you. My time is up, but 
again, I just want to thank you both for your leadership. And 
one final comment. The little things add up, right, that make a 
big difference, and so I appreciate your sentiments, and thank 
you both for everything.
    Chairwoman Stevens. We were delighted to give Mr. Gonzalez 
some extra time for that fabulous last question.
    And now I'd like to recognize my other colleague from Ohio, 
Mr. Balderson, for 5 minutes of questioning.
    Mr. Balderson. Thank you, Madam Chair.
    Dr. Cordova, thank you very much for being here this 
morning. And investing in basic research and education is 
crucial to ensuring America continues to be the world leader in 
scientific innovation, and the NSF plays a major role and 
central role in that.
    One of my passions in Congress is ensuring that our 
workforce is prepared. The Advanced Technology Education 
program at NSF has got my interest. Could you talk a little bit 
about how ATE is preparing students for the 21st century 
economy and what sets the program apart from other CTE 
initiatives?
    Dr. Cordova. CTE?
    Mr. Balderson. Career and technical education, thank you.
    Dr. Cordova. OK. Thank you. I'm very familiar with ATE and 
CTE caught me off guard. So the Advanced Technological 
Education program has been going on for over 25 years now. We 
love the program and so does Congress. It keeps increasing the 
budget for it. It is in many, many community colleges around 
the country, and it is giving students the opportunity to get 
training to be part of a skilled technical workforce. It 
doesn't require that they go on for a 4-year degree, and they 
are coming out with really great skills.
    I visited some of these community colleges and have seen 
the kind of facilities that they have to train the students, 
talked with the faculty who are very educated about the 
industries of the future and what they need. What is really of 
interest to me is that every ATE in each community college is 
different because they're really serving the community. So if 
you have one in Indiana, one in Ohio, there will be different 
depending on the industry base of the area. They're very much 
finely tuned so that people can get skills to go into those 
particular industries and more general skills as well.
    So it's a great program, and it's just had terrific 
results. It's not the only thing we do for the skilled 
technical workforce. Actually, we're spending--depending on how 
you count the dollars because of all our programs--hundreds of 
millions of dollars on the skilled technical workforce because 
we have a lot of other entry opportunities. But that one is a 
great one.
    Mr. Balderson. Thank you. Are there any thoughts or 
insights or ideas on how we could expand some of this into a 
rural district or rural area that's out there?
    Dr. Cordova. Yes. We do have programs that are for more 
rural areas. They're usually in bigger collaborations where 
universities or community colleges want to penetrate those 
areas. We have programs for Native American communities that 
are generally in more rural areas. It kind of depends on what 
you mean by rural because we fund about 2,000 universities, 
colleges, and many other entities, and they can be in principle 
anywhere. So it really depends on exactly what the program is.
    I know some of our INCLUDES programs, which broaden 
participation specifically, are designed to go into rural areas 
to try to have more STEM initiatives. Young people having 
access to STEM, can be inspired and then go on to colleges and 
so forth. I hope that's helpful. And we can get you more detail 
on specific rural programs.
    Mr. Balderson. That was my next question if you could send 
that to me.
    Dr. Cordova. Yes.
    Mr. Balderson. Thank you very much. I appreciate that.
    Madam Chair, I yield back my remaining time.
    Chairwoman Stevens. Excellent. Well, I think it's fair to 
say that we are in very good hands at the NSF with this 
leadership and from today's very important hearing, reviewing 
the Fiscal Year 2020 budget.
    As the Representative from Michigan, I am delighted by the 
leadership from NSF in our State. Over $200 million of funding 
that our State has received, our top three research institutes, 
our universities, University of Michigan, Michigan State 
University, and Michigan Technological University receiving 
lots of support for basic research and efforts that have had 
profound implications for our State, particularly in STEM 
workforce training and supporting students and the next 
generation of discoverers.
    So before we bring this hearing to a close, I'd just like 
to thank our witnesses for testifying before us here today.
    The record is going to remain open for 2 weeks for 
additional statements from Members and any other questions that 
they might ask of you.
    And at this time, our witnesses are excused, and the 
hearing is now adjourned.
    [Whereupon, at 11:31 a.m., the Subcommittee was adjourned.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
